                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, DC 20460




                                                                                     OFFICE OF
                                                                               THE INSPECTOR GENERAL


                                         March 5 , 1999

MEMORANDUM

SUBJECT:       Region 5 Section 106 Tribal Water Grants
               Audit Report Number E3RWF8-05-0045-9100094


FROM:          Elissa R. Karpf /s/ Charles M. Allberry
               Deputy Assistant Inspector General
                for External Audits

TO:            David A. Ullrich
               Acting Regional Administrator
                Region 5

        We have completed our audit of the Region 5 Section 106 Tribal Water Grants program.
We began this audit at the request of Region 5 officials and later expanded the scope of our
review, based upon related allegations received through the Office of Inspector General (OIG)
Hotline. We found that four of the six allegations were unsupported and we were able to
substantiate two of the allegations. We also identified grant management issues that Region 5
needs to address. Our audit work on the first issue discussed in the attached report (i.e.,
allocation of Section 106 funds) was limited in scope, due to an ongoing investigation by the
OIG’s Office of Investigations. Our conclusions may have been different, had we been able to
perform additional work.

ACTION REQUIRED

        In accordance with EPA Order 2750, we have designated you as the action official for this
report. You are required to provide us with a written response within 90 days of this report. The
response should address all recommendations. For corrective actions planned but not completed
by the response date, please describe the actions that are ongoing and provide a timetable for
completion. This information will assist us in deciding whether to close this report.

       We have no objections to the release of this report to the public. Should you or your staff
have any questions, please contact Charles Allberry, Audit Manager, at (312) 353-4222.
PURPOSE, SCOPE, AND METHODOLOGY

        The overall purpose of the audit was to determine whether Region 5 acted improperly in
allocating or awarding Section 106 water grants to Indian tribes. Specifically, the audit objectives
were to answer the following questions:

       1.      Did Region 5 improperly allocate available Section 106 water grant funds to Indian
               tribes?

       2.      Did Region 5 improperly award fiscal year 1997 Section 106 grants for amounts in
               excess of the funds available for such grants?

       3.      Did Region 5 improperly replace Section 106 grant funds with Section 104(b)(3)
               funds for tribes whose Treatment as a State (TAS) eligibility was questionable?

       4.      Did Region 5 improperly use Section 106 grant funds to pay for litigation
               settlements to the State of Wisconsin and/or Wisconsin tribes?

       5.      Did Region 5 award Section 106 grants to tribes that had either not received TAS
               status or whose eligibility could not be verified?

       6.      Could Region 5 properly account for all available fiscal year 1995 through 1998
               Section 106 grant funds?

        We performed our audit in accordance with the U.S. General Accounting Office’s
Government Auditing Standards, 1994 Revision, issued by the Comptroller General of the United
States, and included such tests as we saw necessary to complete our objectives. See appendix 1
for further details on our scope, methodology, and prior audit coverage.

BACKGROUND

        The Clean Water Act, as amended in 1987, authorized EPA to treat Indian tribes as states
for certain purposes identified under Section 518(e). This authorization included awarding
Section 106 grants to tribes, provided they met all the requirements listed in Section 518(e) for
treatment as a state. Such requirements included:

 C     the Indian tribe must have a governing body carrying out substantial governmental duties
       and powers;

 C     the water resources to be managed and protected must be held by the tribe, held by the
       United States in trust for Indians, held by a member of an Indian tribe, or otherwise within
       the borders of an Indian reservation; and



                                                 2
 C     the Indian tribe must be capable of carrying out the functions to be exercised.

        The terms under Section 106(e) also require tribes to demonstrate that they have
emergency authority, comparable to EPA’s authority under Section 504, before tribes could
obtain funding under Section 106.

         Grants under Section 106 of the Clean Water Act are intended to assist Indian tribes in
carrying out effective water pollution control programs. Section 106 grants may be used to fund
a wide range of water quality activities, including: water quality planning and assessments;
development of water quality standards; development of total maximum daily loads; issuing
permits; ground water and wetland protection; ambient monitoring; and nonpoint source control
activities.

RESULTS IN BRIEF

        Region 5 acted properly in allocating and awarding Section 106 Tribal water grants, in
four of six instances. In two cases, Region 5 did not act properly. First, Region 5 used over
$75,000 of Section 106 funds to reimburse a tribe for litigation expenses incurred in defending a
challenge to its authority to administer a water quality standards program. The payment reduced
funds available to other tribes and set a potential precedent for future payments of similar
expenses. Second, Region 5 awarded a $130,000 Section 106 grant to one organization that was
not eligible, thereby reducing Section 106 funds available to eligible tribes.

         Overall, Region 5 did not have adequate management controls in place for the Section 106
grant process. Without sufficient controls, Region 5 officials did not always perform or document
eligibility reviews and sometimes awarded grants before the reviews were completed. Region 5
also did not have clear and complete records of grant fund allocations. Incomplete records made
it difficult to track where Section 106 funds allocated for Indian tribes were used and the amount
of funds that were still available for awards.

REGION 5 COMMENTS AND OIG EVALUATION

        In his response, the Acting Regional Administrator stated that Region 5 has initiated
improvements to systems and procedures that are consistent with the OIG’s recommendations.
He said that the system improvements will make information more readily available for managers
to track activities and are expected to provide greater degrees of assurance that all applicable
requirements are complied with. We generally accepted Region 5's proposed corrective actions.
Some milestone dates still need to be provided for when corrective actions will be implemented.

         As part of the regional response, the Office of General Counsel (OGC) disagreed with our
conclusion that it was improper for Region 5 to use Section 106 funds to reimburse a tribe’s
litigation expenses associated with a lawsuit challenging the tribe’s water quality standards
program. The OGC opinion stated, ?Like other costs associated with developing a water quality


                                                3
standards program, the legal fees that the Tribe incurred in defending its ability to administer a
water quality standards program (the TAS determination) are reimbursable under a §106 grant.”
However, we continue to believe that EPA too broadly interpreted Section 106 as allowing the
litigation costs to qualify as costs of administering a water pollution program.

       Detailed Regional comments and OIG evaluations appear at the end of issues 4, 5, and 6,
beginning on page 7. Region 5's response is included in its entirety as appendix 2.

FINDINGS AND RECOMMENDATIONS

Issue 1: Did Region 5 improperly allocate available Section 106 water grant funds to
Indian tribes?

         We found no evidence that Region 5 improperly allocated Section 106 grant funds to the
tribes. In fiscal year 1998, Region 5 used a formula to allocate Section 106 funds to the tribes.
The formula included: (1) a base amount to build a tribe’s capacity to run a water pollution
control program and (2) a variable amount based on the need for a specific project and its
consistency with Section 106 goals and tribal agreements. Prior to fiscal year 1998, Water
Division officials allocated funds based on their experiences with the tribes and knowledge of the
tribes’ capabilities and needs. EPA Headquarters had not established criteria defining how the
regions were to allocate the available Section 106 funds. Since EPA had not defined a method for
allocating grant funds, Region 5's allocation method did not violate any established criteria.

         The levels of funding Region 5 provided to each tribe were not significantly different and
did not indicate favoritism or other improper conduct. With a few exceptions in fiscal year 1997,
eligible tribes that were included in the fiscal years 1995 through 1998 funding plans received
some level of Section 106 funding. The fiscal year 1997 exceptions included eight Wisconsin
tribes that were included in the funding plan but did not receive grants. Five of these tribes did
not receive grants due to problems with their work plans. The available but unused funds were
carried over to fiscal year 1998 and used to fund these proposals once the work plans were
revised and approved. The three remaining tribes did not receive fiscal year 1997 grants because
they did not submit applications.

Issue 2: Did Region 5 improperly award fiscal year 1997 Section 106 grants for amounts in
excess of the funds available for such grants?

        Region 5 did not improperly award fiscal year 1997 grants in excess of the available funds.
The Region did not have sufficient Section 106 money to fully fund all of the fiscal year 1997
proposals. In preparing the original fiscal year 1997 funding plan, Water Division officials
assumed that the Region would supplement the Headquarters Section 106 allocation, almost
doubling the amount available for awards. However, Region 5 management decided not to
supplement the Headquarters allocation. As a result, the tribes submitted grant proposals that
totaled about twice as much as the available funds.


                                                 4
        Region 5 officials expected the fiscal year 1998 Headquarters allocation to be significantly
greater than fiscal year 1997 (over $2.7 million versus about $450,000). Therefore, regional
officials approved some fiscal year 1997 grants for the full amounts but only obligated about half
of the funds. The Region intended to obligate the remaining amounts when the funds became
available in fiscal year 1998, if the Headquarters allocation increased as expected. As a result, the
amount approved was greater than the amount available for some grantees, but the actual
obligations did not exceed the funds available.

        As mentioned above, some tribes received about half of the amount they applied for in
fiscal year 1997. These tribes were “made whole” in fiscal year 1998 when Region 5 used fiscal
year 1998 funds to award the outstanding amounts from the tribes’ fiscal year 1997 proposals.

Issue 3: Did Region 5 improperly replace Section 106 grant funds with Section 104(b)(3)
funds for tribes whose TAS eligibility was questionable?

         Region 5's plan to award a Section 104 grant to one tribe, Little Traverse Bay Band
(LTBB), in place of a Section 106 grant was not improper. Region 5 had found LTBB eligible
for Section 106 grants. However, regional officials learned of a significant concern regarding the
tribe’s eligibility, and have been investigating the tribe’s eligibility to determine if there is a need
to withdraw the tribe’s Section 106 TAS approval. Section 104 grants did not require tribes to
have TAS approval. Instead, Section 104 funds could be given to a wide range of entities,
including various organizations and even individuals. An Indian tribe that did not meet Section
106 TAS eligibility requirements could qualify under Section 104 as an organization. Therefore,
Region 5 was able to provide Section 104(b)(3) funds to the tribe for the proposed project.

Issue 4: Did Region 5 improperly use Section 106 grant funds to pay for litigation
settlements to the State of Wisconsin and/or Wisconsin tribes?

        Region 5 did not use Section 106 funds to pay a settlement to the State of Wisconsin. In
the OIG’s opinion, the Region did improperly use $75,139 of Section 106 funds to reimburse a
tribe for litigation expenses incurred in defending a challenge to its authority to administer a water
quality standards program.

Section 106 Eligible Activities

         Section 106 of the Clean Water Act states that grants are to be awarded to assist states,
including tribes eligible for treatment as states, and interstate agencies in administering programs
for the prevention, reduction, and elimination of water pollution. EPA’s grant guidance includes a
number of activities that may be eligible under Section 106, such as developing water quality
standards, protecting ground water and wetlands, and controlling nonpoint sources. These
activities will help the tribes carry out effective water pollution control programs.




                                                   5
Section 106 Funds Improperly Used to Pay Litigation Settlement

        Region 5 used $75,139 of Section 106 funds to reimburse a tribe for litigation expenses
incurred in defending a challenge to its authority to administer a water quality standards program.
The State of Wisconsin sued EPA, challenging Region 5’s decision to give TAS status to the Lac
du Flambeau tribe to administer a water quality standards program. The tribe voluntarily chose to
intervene in the lawsuit and incurred litigation expenses as a result. Because Region 5 did not
maintain sufficient administrative records of the TAS approval process, the Region had to
withdraw the tribe’s TAS status. As a result, EPA filed a motion to dismiss the lawsuit. The
Court did so and directed Region 5 to reimburse the State for its attorney’s fees and expenses. A
special EPA Headquarters account was used to pay the State of Wisconsin. The tribe requested
that Region 5 also reimburse its legal expenses. In June 1998, Region 5 amended one of Lac du
Flambeau’s Section 106 grants to reimburse a portion of the tribe’s litigation costs.

         EPA management too broadly interpreted Section 106 in reimbursing the tribe’s litigation
costs. In our opinion, the litigation expenses did not qualify under Section 106 as a cost of
administering a program for the prevention, reduction, and elimination of water pollution. If the
State of Wisconsin’s lawsuit had been a challenge to the water quality standards developed under
the authority of the tribe’s TAS status, then the tribe’s defense of its standards may have qualified
as a cost of administering a water quality program. However, the tribe’s purpose in incurring
litigation expenses, its desire to maintain TAS status and the authority to carry out a water quality
program, did not constitute “administering” the program within the meaning of Section 106.
Without TAS status, the tribe was not authorized to carry out the water quality standards
program.

Region 5 Agreed to Reimburse the Tribe’s Litigation Expenses

        Region 5 officials, with input from EPA’s Grants Administration Division and the OGC,
decided to reimburse Lac du Flambeau’s litigation expenses because: (1) the Region’s inadequate
records caused the tribe’s TAS status to be withdrawn and (2) regional officials believed the tribe
became involved in the lawsuit in good faith, trusting that EPA had properly conducted the TAS
application process. The Region agreed to pay only for “wasted costs” (i.e., the tasks and
expenses that were not expected to be useful or incurred in future TAS litigation).

Less Funds Available for Other Tribes and Significant Precedent Created

       The payment of Lac du Flambeau’s litigation expenses reduced the funds available for
other Region 5 tribes, although not by a significant amount. The $75,139 reimbursement came
from the Section 106 funds available in fiscal year 1998 for distribution to all eligible tribes.
Region 5 received a significant increase in Section 106 funds in fiscal year 1998 (over $2.7 million
versus about $450,000 per annum in prior years). As a result, the impact on other tribes was
minimal since $75,139 was less than 3 percent of the total available. However, another tribe
could have used the funds for an environmentally beneficial project.


                                                  6
         Reimbursing Lac du Flambeau’s legal expenses resulted in a potentially significant
precedent for the Agency to reimburse litigation expenses a tribe or a state incurs while defending
its right to administer other environmental programs. Another tribe, Oneida, has already
expressed a desire to be reimbursed for expenses incurred in another lawsuit the State of
Wisconsin filed. As of February 1999, Oneida had not yet submitted a detailed list of legal
expenses for analysis and reimbursement, but Region 5 officials indicated they would consider the
potential claim in preparing the fiscal year 1999 funding plan. Such a precedent has the potential
to significantly affect the available grant funds in the future. It could also reduce the funds
available for environmental projects, thereby limiting the Section 106 grant program’s future
environmental impact.

Recommendation

        Region 5 needs to obtain a written legal opinion from OGC at EPA Headquarters on the
legality of awarding Section 106 funds to reimburse a tribe’s litigation expenses incurred in
defending its ability to administer a water quality standards program. If the OGC opinion does
not support Region 5's action, then Region 5 will need to annul the grant and recover the funds
from the tribe. If OGC’s opinion supports Region 5's action, then the OIG’s General Counsel will
evaluate the opinion and determine whether to proceed with the issue.

Region 5 Comments

        On December 24, 1998, the Acting Regional Administrator requested a written legal
opinion from OGC. OGC responded with its opinion on January 28, 1999. OGC attorneys
concluded that the award of a Section 106 grant to Lac du Flambeau for the purpose of
reimbursing legal expenses was proper. Region 5 officials stated that, while OGC’s opinion
provided a legal basis for the award of the Section 106 funds, Region 5 does not consider the
reimbursement of such legal expenses as a routine cost of administering a water quality standards
program. The Acting Regional Administrator further stated in his response that, as a policy
matter, the Region will not give preference for reimbursement of litigation expenses over other
programmatic costs of administering a water quality standards program.

OIG Evaluation

        We disagree with the OGC opinion that using Section 106 funds to reimburse the tribe
was proper. However, we recognize that the situation involved unusual circumstances and is
unlikely to routinely recur. Given the Acting Regional Administrator’s assurance that, as a policy
matter, Region 5 will not give preference to reimbursing legal expenses over other programmatic
costs, we will not pursue this legal disagreement further. If Region 5 officials find that this
situation does recur, where other grantees ask for similar legal expense reimbursements, then the
Regional officials should re-evaluate their policy on providing legal expense reimbursements, even
in such unique circumstances.



                                                 7
Issue 5: Did Region 5 award Section 106 grants to tribes that had either not received TAS
status or whose eligibility could not be verified?

         Eleven of twelve grantees reviewed were eligible to receive Section 106 grants.1
However, Region 5 awarded a $130,000 Section 106 grant to one organization that was not
eligible.

Grant Eligibility Requirements

       The Clean Water Act, through Sections 106 and 518, authorizes EPA to provide Section
106 grants only to states, interstate agencies, and tribes that have met certain eligibility
requirements. The tribe must show that it is capable of carrying out necessary functions, is
recognized as a tribe by the Secretary of the Interior, and has prescribed emergency authorities.
Section 104 of the Clean Water Act provides a much broader authority for grants by including
various public or nonprofit private agencies and organizations as eligible recipients.

Region 5 Awarded a Grant to an Ineligible Organization

        In June 1996, the Intertribal Council of Michigan (ITC), a health and human services
organization designed to provide services to the Federally recognized tribes in the State of
Michigan, applied for two grants from the Region 5 Water Division. ITC requested grants to
develop: (1) Best Management Practices Plans for four Michigan tribes and (2) Wellhead
Protection Plans for two tribes. ITC did not request a specific grant type. In September 1996,
Region 5 notified ITC that it would receive a Section 106 water grant for $130,000 (the Region
combined the two grant requests into a single award). Region 5 officials did not perform a TAS
determination to ensure that ITC was eligible to receive a Section 106 grant.

        In December 1997, when ITC requested a project period extension, a Water Division
project officer determined that ITC had not been eligible to receive the Section 106 grant because
ITC did not fit within the three groups eligible to receive Section 106 grants (states, interstate
agencies, and tribes). ITC had already expended over 70 percent ($92,538) of the grant. Water
Division officials notified ITC that it should stop spending the Section 106 grant funds and
provided ITC with a Section 104 grant to complete the original project. ITC’s unexpended
Section 106 funds ($37,462) are still obligated in EPA’s Integrated Financial Management
System.




        1
         The twelve grantees reviewed were Bois Forte, Fond du Lac, Grand Traverse, Intertribal Council of
Michigan, Mille Lacs, Oneida, Red Cliff, Red Lake, Sault St. Marie, Sokaogon (Mole Lake), St. Croix, and
Stockbridge-Munsee.

                                                       8
Region 5 Did Not Have Adequate Controls for Ensuring Eligibility

        Region 5 did not have adequate controls or procedures in place to ensure that all Section
106 grantees were eligible to receive grants. The lack of procedures allowed Region 5 officials to
give a Section 106 grant to an ineligible organization.

        In September 1998, Region 5 officials completed their own review of TAS eligibility files
and identified a number of file deficiencies. During our review, we confirmed that Region 5 did
not have good controls over Section 106 eligibility reviews. In two instances (ITC and Bois
Forte), it appeared that Region 5 officials did not perform any reviews and did not determine
whether the grantee was eligible to receive a Section 106 grant prior to grant award.2

        We noted several other instances where the Region did not perform all of the necessary
steps before awarding a Section 106 grant. Examples of problems included:

 •     For five grantees (Fond du Lac, Sault St. Marie, Sokaogon/Mole Lake, St. Croix, and
       Stockbridge-Munsee), regional officials did not document a capability review (Water
       Division) and/or an emergency powers determination (Office of Regional Counsel).

 •     In two instances, Region 5 awarded grants before the TAS determinations were officially
       completed. For one tribe (Mille Lacs), the grant was awarded in September 1990, when
       the earliest the TAS determination could have been completed was February 1991. In the
       second instance (St. Croix), Region 5 awarded the grant in September 1996, although it
       did not complete its TAS review and notify the tribe it was eligible to receive Section 106
       grants until December 1996.

      These examples clearly show that Region 5's Water Division and Office of Regional
Counsel need to institute better controls over the Section 106 grant process, by developing and
implementing procedures for review and documentation of grant eligibility requirements.

Less Funds Available for Eligible Tribes

        When Region 5 officials incorrectly awarded Section 106 funds to an ineligible grantee,
they reduced the amount available for eligible tribes. The $130,000 Region 5 incorrectly awarded
was almost 15 percent of the total Section 106 funds available to tribes in fiscal year 1996.3 This
significantly reduced the funds available for improving water quality on eligible Tribal lands in
Region 5.




       2
        Bois Forte was eventually found to be eligible, although ITC was not.
       3
        Total Section 106 funds available to Region 5 tribes in fiscal year 1996 were $889,966.

                                                       9
        Without adequate procedures for ensuring eligibility, Region 5 may inadvertently award
future grants to ineligible grantees. The Region may also be unable to support its eligibility
determinations if it does not require complete documentation of future eligibility reviews.

Recommendations

        Region 5 needs to correct its error and restore funds to the Section 106 allocation for
eligible Indian tribes.

       Region 5 also needs to develop and implement procedures to ensure that Section 106
grantees are eligible to receive the grants before awarding them. The procedures should require
complete documentation of the eligibility determinations.

Region 5 Comments

       In response to our recommendation to restore funds to the Section 106 allocation, the
Acting Regional Administrator stated that an action to de-obligate the unexpended balance of
ITC’s Section 106 grant ($37,462) will be processed during the second quarter of fiscal year
1999. He also stated that Region 5 is examining alternatives for addressing the Section 106 funds
ITC already expended ($92,538).

       In response to our recommendation to develop and implement procedures, the Acting
Regional Administrator indicated that the Region will implement several corrective actions. For
instance, Region 5:

C      will finalize changes to its procedures for documenting capability analyses and emergency
       powers determinations. Once finalized, the procedures will be implemented on a six-
       month pilot basis and will then be reviewed by a team of staff and management level
       participants. The procedures will be added to the State and Tribal Programs Branch
       Procedures Manual.

C      has developed checklists for 106 grants, to ensure applicants are 106-eligible tribes and
       that the activities proposed in the applicant’s workplan are eligible for 106 funding.

C      will review and improve grant award procedures and associated tools, such as grant
       processing checklists.

C      will make the list of 106-eligible tribes more accessible by adding the list to the TAS and
       grants processing procedures and including it in the Water Division’s Monthly Monitoring
       Report.




                                                10
C      is considering adding a procedural step where all water program tribal grants will be
       reviewed by one tribal program person, to help ensure grantee eligibility requirements are
       met.

C      has recently completed a new database system for tracking water program grant-related
       information and for helping to ensure compliance with applicable requirements.

OIG Evaluation

        We concur with Region 5's decision to de-obligate the unexpended ITC funds and accept
the milestone date of March 31, 1999 for completing this action. Regional officials still need to
provide corrective action and a milestone date for addressing the expended grant funds.

        The Region’s proposed corrective actions for developing and implementing procedures to
ensure tribal eligibility should address our concerns, when fully implemented. Region 5 officials
need to provide milestone dates for when each of the corrective actions will be completed.

Issue 6: Can Region 5 properly account for all available fiscal years 1995 through 1998
Section 106 grant funds?

        Region 5 accounted for the Section 106 funds available for award in fiscal years 1995
through 1998, with only two minor exceptions. The exceptions, $18 in fiscal year 1997 and $22
in fiscal year 1998, resulted from differences in the figures the OIG and the Region used as the
Headquarters allocations in those years.

        Although Region 5 was able to account for the funds, we found it difficult to reconcile the
amounts available, planned, and awarded in fiscal years 1995 through 1998. This occurred
because of a weakness in the Region's management controls. Some supporting documents were
not clear or were not available. The Region should document and be able to clearly identify when
and where the funds are awarded.

Recommendation

        Region 5 needs to improve its management controls. Specifically, the Region needs to
develop better procedures for tracking and documenting how the available funds designated for
the tribes are awarded.

Region 5 Comments

        The Acting Region 5 Administrator stated that the Water Division’s State and Tribal
Programs Branch will refine its procedures to ensure that clear documentation is available in a
timely fashion to show the following:



                                                11
C      tribal fund allocations by Headquarters;

C      any adjustments made by the region and the supporting rationale;

C      development of initial tribal funding plans;

C      modifications to the funding plan after its external release and supporting rationale;

C      documentation of the actual funding provided;

C      a summary of the funds carried over for tribal funding for the following fiscal year.

The documentation will be merged and stored in central State and Tribal Program Branch files at
the close of each fiscal year.

OIG Evaluation

      Region 5's proposed actions should address our concerns, when fully implemented.
Regional officials need to provide a milestone date for when the procedures will be revised and
implemented.




                                                  12
                                                                                       Appendix 1
                                                                                       Page 1 of 4

                    Scope, Methodology, and Prior Audit Coverage

Scope

        We reviewed the Clean Water Act Section 106 Tribal Grants program in Region 5. We
limited our focus to grants Region 5 awarded to Indian tribes from fiscal year 1995 through fiscal
year 1998. We began our fieldwork on June 1, 1998 and completed it on November 23, 1998.
We issued a draft report to Region 5 on December 14, 1998 and received the Region’s response
dated February 16, 1999.

        We reviewed management controls over the Section 106 grant process as needed to
address our objectives. In general, Region 5's controls over Section 106 grants were not
sufficient. Our specific concerns are discussed in the body of the report.

        Limitation: Due to an ongoing investigation by the OIG’s Office of Investigations, we
could not perform all of the audit work we would otherwise have completed related to the first
issue discussed in our report, whether Region 5 improperly allocated Section 106 grant funds.
Had we not been limited in our scope of work, we might have discovered information that would
have resulted in a different conclusion than the one presented in this report.

Methodology

        To answer our first objective (allocation of grants), we determined how Region 5
allocated available grant funds to tribes, by interviewing Water Division and Resources
Management Division staff. We researched the Clean Water Act, applicable regulations, and EPA
policy to find criteria for how Section 106 grant funds were supposed to be allocated.

        To answer our second objective (awarding grants in excess of available funds), we
interviewed Water Division and Resources Management Division personnel to obtain information
about what funds were available and awarded. We researched appropriations law, regulations,
and EPA policies to determine what criteria existed regarding use of funds for various fiscal years.
Finally, we randomly selected a sample of Section 106 tribal grants to review. In selecting the
sample, we obtained a report of grants awarded from fiscal year 1995 through May 21, 1998,
from the Grants Information Control System. We did not review the system’s controls or verify
the accuracy of the data in the system. The universe of grants in that time frame was 40 grants to
20 tribes. We reviewed a total of 14 grants to 7 tribes, covering 35 percent of the universe. See
table 1 for a list of grants reviewed. We reviewed the grant files to determine whether: (1) the
grants were included in Region 5 funding plans and for what amounts, (2) the grants were
awarded for a higher amount than was available, and (3) any other problems or concerns existed.



                                                13
                                                                                      Appendix 1
                                                                                      Page 2 of 4

                             Table 1: Sample for Objective 2
                                    Tribe              Grants
                           Bad River              985321010
                                                  985321020
                           Bois Forte             985316010
                                                  985316020
                           Fond du Lac            985463011
                                                  995797020
                                                  995797030
                           Lac du Flambeau        985467010
                           Menominee              995079050
                                                  995079060
                                                  995079070
                           Oneida                 985399010
                                                  985399020
                           St. Croix              985372010


         To answer our third objective (use of Section 104 grants in place of Section 106 grants),
we reviewed the Clean Water Act and EPA guidance for Section 104 and 106 grants to determine
their intended uses. We interviewed Water Division officials and reviewed the proposed work
plans for the grant in question. We obtained input from the OIG’s General Counsel on whether it
was proper to use Section 104 funds for a project that had been proposed under Section 106.

        To answer our fourth objective (use of Section 106 funds to pay for litigation expenses),
we obtained information about payment of litigation expenses from Water Division, Resources
Management Division, and Office of Regional Counsel personnel. We obtained input from the
OIG’s General Counsel to determine whether such payments from Section 106 funds were
proper.

         To answer our fifth objective (awarding grants to tribes who were not eligible), we
monitored Region 5's internal review of its TAS determinations. We also selected a judgmental
sample of grantees to review their eligibility for Section 106 grants. We developed a universe of
all tribes that had received Section 106 grants between fiscal year 1995 and fiscal year 1998.


                                                14
                                                                                                        Appendix 1
                                                                                                        Page 3 of 4

From a universe of 22 grantees, we reviewed 12, or 55 percent.4 In selecting our sample, we
included tribes that Region 5 believed had complete eligibility determinations (4 selected of 7
total), as well as tribes the Region believed had incomplete determinations, but still found to be
eligible (6 of 13). We also reviewed two grantees that Region 5 did not include in its internal
review. In selecting grantees to review, we also considered which state the tribes were located in,
so we could obtain a balance of tribes in each state. We reviewed 3 of 4 grantees located in
Michigan, 4 of 8 from Minnesota, and 5 of 10 from Wisconsin. See table 2 for a listing of
grantees reviewed.

                                      Table 2: Sample for Objective 5
                                                          Region 5 Eligibility Review Category
                     Tribe                  State
                                                                          Incomplete,            Not
                                                        Complete          but Eligible         Reviewed
             Mille Lacs                    MN                  X
             Oneida                        WI                  X
             Red Cliff                     WI                  X
             Red Lake                      MN                  X
             Bois Forte                    MN                                   X
             Fond du Lac                   MN                                   X
             Sokaogon/Mole Lake            WI                                   X
             St. Croix                     WI                                   X
             Sault St. Marie               MI                                   X
             Stockbridge-Munsee            WI                                   X
             Grand Traverse                MI                                                       X
             Intertribal Council           MI                                                       X


       When reviewing the files, we considered whether the tribe: (1) met the eligibility
requirements from the Clean Water Act Section 518(e) and 40 Code of Federal Regulations
(CFR) Part 130.6(d), (2) had emergency authorities required under the Clean Water Act Section



         4
         Two tribes, Forest County Potawatomi and Grand Traverse, were added to this universe, although they
were not part of the universe for objective 2, because they did not receive Section 106 grants until later in fiscal
year 1998.

                                                          15
                                                                                     Appendix 1
                                                                                     Page 4 of 4

504 and 40 CFR Part 35.260, and (3) was Federally recognized by the Secretary of the Interior.
We also reviewed how Region 5 reached its eligibility determination.

        To answer our sixth objective (accounting for all available Section 106 grant funds), we
obtained information on the amount of funds available for award each year for fiscal years 1995
through 1998. We compared the funds available to the funds Region 5 planned to award and the
funds actually awarded for each year. We created a spreadsheet in Lotus 123 Release 5 to track
the funds available for each fiscal year, including any carryover of funds not awarded. We
worked closely with regional staff to reconcile any differences found between our records and
theirs.

Prior Audit Coverage

      There was no prior audit coverage of the Region 5 Section 106 Tribal Water Grants
program.




                                               16
                                                                            Appendix 2
                                                                            Page 1 of 18

                  Region 5 Response to Draft Report

                UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    REGION 5
                          77 WEST JACKSON BOULEVARD
                              CHICAGO, IL 60604-3590
                                  FEB 1 6 1999



MEMORANDUM

SUBJECT:      Region 5 Response to the office of Inspector General
              Draft Report on Region 5 Section 106 Tribal Water
              Grants

FROM:         David A. Ullrich
              Acting Regional Administrator

TO:           Elissa R. Karpf, Deputy Assistant Inspector General
                 For External Audits


Thank you for the opportunity to respond to the draft report on
Region 5 Section 106 Tribal Water Grants. Most of the Region's
issues with the draft report were resolved through intense
negotiations between our staffs, and we appreciate the
responsiveness of the OIG to the Region's concerns. The Region's
remaining comments are attached, along with our formal response
to the OIG recommendations.

If you have any questions concerning these comments, please
contact Ms. Mary Pat Tyson, at (312) 886-3006.


                                               David A. Ullrich



cc:     Gail C. Ginsberg, Regional Counsel
        Norman R. Niedergang, Asst. Regional Administrator
           for Resources Management Division
        Tinka Hyde, Acting Director, Water Division


Attachment




              Note: The original response was signed by David A. Ullrich.




                                          17
                                                                                                          Appendix 2
                                                                                                          Page 2 of 18


                                  Region 5 Response to OIG Report
                       on the Region's Use of Clean Water Act Section 106 Funds

Issue 4

Issue: Did Region 5 improperly use Section 106 grant funds to pay for litigation settlements
to the State of Wisconsin and/or Wisconsin Tribes?

OIG noted in its report that Region 5used $75,139 in Section 106 funds to reimburse the Lac du
Flambeau Band of Chippewa for litigation expenses incurred in defending a challenge to the Tribe's
authority to administer a water quality standards (WQS) program. OIG questioned whether this use
of 106 funds was proper.

Background

The State of Wisconsin filed a lawsuit challenging Region 5's decision to grant Treatment as a State
(TAS) designation for the Clean Water Act Section 303 WQS program. Although the original
parties of the lawsuit were the State and EPA, the Lac du Flambeau Tribe felt the matter was critical
to its sovereignty and environmental well-being, and joined the case as an intervening defendant.
The Tribe incurred legal expenses as a result of its intervention in the lawsuit, and requested
reimbursement for some of these expenses. After reviewing the Tribe's request, EPA determined
that it would reimburse the Tribe for a specified portion of these costs.

Region 5 sought the advice of U.S. EPA’s Office of General Counsel (OGC) on whether EPA could
legally reimburse legal fees of the Wisconsin Tribes involved in this litigation. OGC advised
Region 5 that it would be legal to reimburse the Tribe's legal fees under CWA Section 106. After
consideration of the matter, EPA decided, as a policy matter, that Section 106 funds should not be
used to reimburse routine legal fees for a Tribe’s development of water quality standards and TAS
applications. However, EPA determined that due to the unique circumstances concerning this
litigation, circumstances that Region 5 does not envision reoccurring, it would be appropriate to
reimburse a portion of the Tribe’s legal fees, i.e., that portion which represented wasted effort.

After determining the amount of the Tribe's legal costs which potentially could be eligible, the
Region sought deviations from regulatory requirements of Part 31 in order to allow the Region to
proceed with a grant amendment. A deviation was approved by the Grants Administration Division
in June 1998. An amendment was subsequently processed to reimburse the Tribe.

Response

The Region consulted with the Office of Water and OGC prior to processing the amendment for Lac
du Flambeau. These offices concurred with the Region's decision that Section 106 funds could be
awarded to the Tribe for a specified portion of its legal costs. OIG recommended that Region 5
obtain a written legal opinion from EPA's OGC on the legality of awarding Section 106 funds to
reimburse a Tribe’s litigation expenses incurred in defending its ability to administer a water quality
standards program. Region 5 followed up on this recommendation--see Attachment 1 (memo dated
December 24, 1998). A written response from OGC on the use of Clean Water Act Section 106




                                                      18
                                                                                                         Appendix 2
                                                                                                         Page 3 of 18



                                                  2

funds for legal expenses was provided in response to this memo--see Attachment 2 (dated January
28, 1999). While OGC’s opinion provides the legal basis for the award of Section 106 funds to
reimburse litigation expenses incurred in defending a tribe’s ability to administer a water quality
standards program, Region 5, as a policy matter does not consider the reimbursement of such legal
expenses as a routine cost of administering a water quality standards program. Region 5, as a policy
matter, will not give preference for reimbursement of litigation expenses over other programmatic
costs of administering a water quality standards program. See Attachment 3, Memorandum from
David Ullrich, Acting Regional Administrator, to Jo-Lynn Traub, Director, Office of Water, April
23, 1998.

Issue 5

Issue: Did Region 5 award Section 106 grants to Tribes that had either not received TAS
status or whose eligibility could not be verified?

Eligible Recipients

OIG noted in its report that eleven of the twelve grantees reviewed as part of its assessment were
eligible recipients for Clean Water Act Section 106 grants. However, OIG pointed out that Region
5 awarded a $130,000 Section 106 grant to one organization that appears not to have been eligible,
the InterTribal Council of Michigan (ITC). ITC defines itself as a “health and human services
organization designed to provide services to the Federally recognized Tribes in the State of
Michigan,” which includes assisting in the development of environmental program capacity for its
member Tribes [ITC, Proposal for the Development of Best Management Practices for Non-Point
Source Pollution of Surface Waters, June 1996].

In June 1996, ITC applied for two water program grants, to develop: (1) Best Management Practices
Plans for four Michigan Tribes (Grand Traverse Band of Ottawa and Chippewa Indians; Bay Mills
Indian Community; Saginaw Chippewa Indian Tribe of Michigan; and the Hannahville Indian
Community); and (2) Wellhead Protection Plans for two Tribes (Grand Traverse Band of Ottawa and
Chippewa Indians, and the Hannahville Indian Community). In September 1996, Region 5 awarded
a Section 106 water grant for these activities (the Region combined the two grant requests into a
single award). In December 1997, a Water Division project officer determined that ITC appeared
to have been ineligible to receive a Section 106 grant because ITC was not a State, interstate agency,
or a 106-eligible Tribe.

Upon learning of this issue, Region 5 immediately took action to stop further expenditures under
this grant. A Section 104 grant was awarded to complete the planned activities. However, ITC had
already expended $92,538 out of this grant by the time these actions were taken.

In its report, OIG recommended that Region 5 “correct its error and restore funds to the Section 106
allocation for eligible Indian Tribes” (Draft Report at 8).




                                                      19
                                                                                                                Appendix 2
                                                                                                                Page 4 of 18


                                                          3

         Response

         Region 5 has examined several issues and alternatives associated with addressing the Section 106
                  award to ITC, including:

         <    Whether ITC was eligible for a 106 grant as a consortium;

         <    How to best process an action(s) to make available to one or more 106-eligible Tribes the
               balance that was not expended by ITC ($37,462);

         <     What actions are appropriate to address the issue of the balance expended by ITC. Among
the
               options specifically evaluated were:

              %      The appropriateness of bringing a cost recovery action for the Section 106 funds
                       expended by ITC; and
              %      Options for supporting the work done by ITC ($92,348) using Section 104(b)(3) funds.

         Recipient Eligibility - The Region first examined whether ITC would be eligible for a Section 106
         grant as an inter-Tribal consortium. In the Agency’s discussion of CWA Tribal grant eligibility
         found at 54 F.Reg. 14354 April 11, 1989, the Agency stated that it

             anticipates that smaller Tribes may have difficulty administering these grant programs
             effectively and efficiently. Consequently, EPA encourages smaller Tribes to consider
             consortia or InterTribal agencies as a way to obtain the necessary expertise to administer these
               programs. While EPA encourages applications by groups or consortia of small Tribes
within
              the same geographical area, each application, regardless of the applicant's size, will
be
               evaluated on a case-by-case basis.

         This provision, read together with the definition of eligible Indian Tribe found at 40 CFR 35.110,
         which defines an eligible Tribe for purposes of the CWA, as "any Indian Tribe, band, group, or
         community recognized by the Secretary of the Interior and exercising governmental authority
         over a federal Indian reservation," suggests that inter-Tribal consortia may be eligible for Section
         106 grants in some cases, for example if a consortium of Tribes (such as the Minnesota Chippewa,
         which is made up of six member bands) is recognized as a federal Indian Tribe by the Secretary
         of Interior; or if a consortium comprised of individual Tribes, which each respectively had been
         determined eligible for Section 106, applies for a 106 grant.

         The InterTribal Council of Michigan is not in and of itself a federally recognized Tribe. As stated
         above, it is a service organization for federally recognized Tribes in Michigan. At the time of
         the ITC grant award in 1996, none of the Tribes for which projects were submitted under ITC’s grant
         workplan had demonstrated eligibility for Section 106. Therefore, at the time of the award, ITC
         appears to not have been eligible to receive the grant funds under Section 106.




                                                              20
                                                                                                      Appendix 2
                                                                                                      Page 5 of 18


                                                 4

Unexpended Balance - The unexpended balance in the ITC grant ($37,462) remains obligated at this
time as unexpended Section 106 funds, as discussed in the draft OIG Report. The Region has
confirmed that the $37,462 balance can be de-obligated and the funds will be returned to Region
5 for subsequent award to an eligible Region 5 Tribe later in FY 1999. This would partially
address OIG's recommendation that the Region "restore funds to the Section 106 allocation for
eligible Indian Tribes." An action to de-obligate this balance will be processed during the
second quarter.

Expended Balance - The Region has closely examined whether it should seek recovery of the funds
awarded to and expended by ITC. In assessing this option, the Region considered the following:
(1) ITC did not seek Section 106 funds in its grant application; rather ITC applied for funding
without specifying the source; (2) The award of funds to ITC through the Section 106 program
appears to have been the result of a processing error. The commitment notices for this grant
initially identified the award as an "X" grant (grants which begin with the letter "X" generally
utilize Section 104 funds, while "I" grants use Section 106 funds). There was communication
during the preparation of the grant documents that the grant should be processed as a Section 104
award; and (3) the work proposed by ITC was eligible for funding under another CWA grant
program, Section 104(b)(3). Because it appeared that the award of funds to ITC through the 106
program was due to the Region’s error, and the work proposed would have been eligible for funding
through the Section 104(b)(3) program, the Region currently does not recommend seeking
repayment of the funds from ITC.

Region 5 believes the preferred choice for addressing the issue of the $92,538 awarded to and
expended by ITC is to process actions to support the work done by ITC using Section 104(b)(3)
funds, rather than pursuing cost recovery. Based on the Region's preliminary review, ITC is
eligible to receive a Section 104 grant, and the water program work carried out by ITC would be
eligible under Section 104. Specifically, Section 104(b)(3) of the CWA authorizes the
Administrator to “make grants to State water pollution control agencies, interstate agencies, other
public or non-profit institutions, organizations, and individuals” 33 U.S.C. § 1254(b)(3). ITC is
a service organization. The projects to be funded through its 1996 grant proposal were for
development of a wellhead protection plan for the Hannahville Indian Community and the Grand
Traverse Band, as well as development plan of best management practices for non-point source
pollution of surface waters for Grand Traverse Band, Bay Mills, Saginaw Chippewa Tribe, and
Hannahville Indian Community. Work of this nature would be eligible for funding under Section
104(b)(3) of the CWA.

The Region is investigating alternative approaches for making this correction. The alternatives
currently being evaluated include:

< Reprogramming the 106 funds on the ITC grant, to change these funds to 104(b) money.
The      Region would process an amendment to the ITC grant changing the authority and the
accounting    data to reflect the reprogramming.

< Processing amendments to previously-awarded Section 104(b)(3) grants and to the ITC
grant,    with the result that the work done by ITC would be funded using 104(b)(3) monies. The
Region       has preliminarily identified 106-eligible Tribes that have received 104(b)(3)
grants, with      workplans comprised of activities that would also be eligible for funding
under Section 106.



                                                     21
                                                                                                                 Appendix 2
                                                                                                                 Page 6 of 18


                                                           5

              Under this alternative, the Region would amend suitable 104(b)(3) grants to support the
water
              program work done with Section 106 monies, and would amend the ITC grant to support
the
              water program work performed with 104(b)(3) funds.

         Region 5 will continue its examination of the alternatives for supporting the work done by ITC using
         Section 104(b)(3) funds, and determine what approach is most appropriate. Any actions would be
         carried out only following complete investigation into the eligibility of the work performed by the
         recipients, and verification that there are no other legal issues associated with implementing these
         actions. Region 5 will apprise OIG of the actions determined to be appropriate to resolve this
         issue.

         Controls for Ensuring Recipient Eligibility

         OIG expressed in its report that Region 5 did not have adequate controls/procedures in place to
         ensure that all Section 106 grantees were eligible to receive grants. OIG noted that in two instances
         (ITC and Bois Forte), it appeared that Region 5 did not perform appropriate reviews to confirm the
         grantee was eligible to receive a Section 106 grant prior to grant award. OIG also noted other areas
         where the Region's grant-related procedures should have been stronger, specifically:

         < Five cases where the Region did not document a capability review and/or an emergency powers
           determination in its TAS decision-making; and
         < Two instances where the Region awarded grants after TAS review work had been done but
            before the TAS approval letters had been sent to the Tribes.

         The Region has recognized the need to strengthen its controls and procedures related to TAS
         determinations and program grant awards, and has been working on numerous improvements. A
         summary of some of the key actions taken and planned is provided below:

         1.    TAS Procedures: Capability Reviews - Region 5 had identified in 1996 and 1997 that
it
              needed to strengthen and document its procedures related to TAS determinations for 106 grant
              eligibility, as well as for other CWA programs. Among the specific changes made to the
              procedures was to add a step to specifically document the Region's capability determinations.
              Based on conversations with present and former EPA employees who worked on 106
              eligibility determinations, the process that was historically used for capability determinations
                 did not call for a written summary of the capability review. The Water Division, with
input
                   from others (e.g. Indian Environmental Liaisons) as appropriate, would make a
capability
               determination taking into account:

               <    The materials submitted in the application (e.g. Tribal environmental regulations);
               <    The Region's previous work with the Tribe;
               <    The Tribe's performance in administering other EPA grants (e.g. GAP grants); and
               <    Current and future Tribal staffing of environmental programs.

               In some cases this review was documented on a checklist, but in many cases it was not.


                                                     22
                                                                                              Appendix 2
                                                                                              Page 7 of 18
Following a positive determination regarding capability, and already having received a memo




                                              23
                                                                                                              Appendix 2
                                                                                                              Page 8 of 18


                                                         6

             from the Office of Regional Counsel on other eligibility requirements, the Water Division
               would prepare a decision package for the Regional Administrator to document the results
of
             the entire review. Capability determinations were not separately documented by the Water
             Division in a memo to the file. This lack of complete documentation was identified by the
             Region as a procedural flaw, and current procedures call for a documented capability analysis.
             The Water Division and the Office of Regional Counsel have also created two specific
              checklists to guide staff reviewers in making 106 eligibility determinations, one of which
is
             specifically intended for capability reviews. These checklists are included in the Region's
             Procedures for Processing Indian Tribe Applications for Water Program Eligibility Approval
              and Program Funding Approval, and are available to OIG upon request.

        2.   TAS Procedures: Emergency Powers Determinations - Region 5 had identified in 1998 that
             it needed to clarify the appropriate criteria for emergency powers determinations, and
to
                 strengthen its procedures for documenting reviews of Tribes' emergency powers (pursuant
to
                 Section 106(e) of the Clean Water Act). Through the course of reviewing files for all of
the
             106-eligible Tribes, the Region found four tests had been used to make determinations
               regarding whether a Tribe could satisfy the emergency powers requirement. Tribes were
found
                 to have powers equivalent to EPA's powers under Section 504 of the Clean Water Act if:

             <  The Tribal Attorney General (or equivalent) submitted an affirmative statement asserting
                that the Tribal court had general authority to issue temporary restraining orders (“Fort
                Berthold” test outlined in memo from Robert B. Schaefer to Richard Freeman, July 10,
                1989);
              < The Tribal constitution provides the Tribe with broad authority to pass and enforce
                laws/ordinances necessary to protect health and welfare, with authority to create law
                enforcement agencies, and with the authority to govern the conduct of members (“Oneida”
                test described in memo from Robert B. Schaefer to Richard Freeman, July 10, 1989, and
                also used in the Red Cliff, Red Lake, and Grand Portage Section 106 eligibility
                approvals);
              < The Tribe’s application contains a narrative statement by the Tribal attorney, or other
                equivalent Tribal official stating that the Tribe possesses emergency authority comparable
                to that of EPA under Section 504 (see for example the February 6, 1992 letter from
                Keweenaw Bay Indian Community Tribal Attorney); or
             < The Tribal constitution or laws clearly provided the Tribe with power to enjoin activities
                determined to be harmful to the health or welfare of persons or natural resources (see for
                example the Mille Lacs Band’s and Fond Du Lac Band’s explicit abatement authority).

             The Region convened a conference call with OGC on September 17, 1998, to discuss the
             different tests used by the Region in its past 106 eligibility determinations. The discussion
             focused on how numerous different tests might be used, and that the threshold test for
             establishing emergency powers/contingency plan capability might be satisfied in many
             different ways depending upon a Tribe’s governing system (for example, participants in the
             call discussed the fact that Section 504 would not require that a Tribe possess its own court


                                                   24
                                                                                                Appendix 2
                                                                                                Page 9 of 18
system). Thus the criteria that had been used in Region 5 106 eligibility determinations were
 reconfirmed.




                                              25
                                                                                                                  Appendix 2
                                                                                                                 Page 10 of 18


                                                            7

               Reflecting that documentation of the emergency powers reviews had been somewhat sporadic,
               the TAS procedures now call for the Region to specifically document the emergency powers
               determination (including the criteria or "test" used to find a Tribe had adequate emergency
                powers).

               The current procedures used by the Region for TAS determinations are reflected in a draft flow
               chart and a procedural document (Procedures for Processing Indian Tribe Applications for
               Water Program Eligibility Approval and Program Funding Approval). Once finalized, Water
               Division and the Office of Regional Counsel will implement these procedures in all TAS
                reviews. Until these procedures have been finalized, the Region is not processing program
               applications currently in house. The Region intends to implement the procedures on a six-
                month pilot basis, after which they will be reviewed by a team comprised of staff and
               management level participants in the process. The TAS procedures will be added to the State
               and Tribal Programs Branch Procedures Manual, and will be periodically reviewed and revised
               to reflect experience gained in completing eligibility reviews and any new guidance from EPA
                 Headquarters.

          3.   Grant Award Procedures - In addition to strengthening TAS review procedures, the Water
               Division has since 1997 been working to enhance grant processing procedures, to ensure grant
               eligibility requirements (and other applicable requirements) are met prior to awards.
               Procedures have been refined and documented, and have been provided to the staff for use.
               Grant processing-related procedures are included in the State and Tribal Programs Branch
               Procedures Manual. The Water Division and the Office of Regional Counsel have also
               developed a specific checklist for 106 grants, to ensure applicants are 106-eligible Tribes and
                that the activities proposed in the applicant's workplan are eligible for 106 funding. Efforts
are
                being made to review and improve procedures and associated tools, such as grant processing
                 checklists, on a periodic basis. For example, a "Grants Roundtable" meeting was held
in
               August 1998, with Water Division Project Officers and Grants Specialists participating. The
                  objective for this meeting was to discuss and evaluate ways of strengthening grants
processing
                 and grants management procedures.

                 The Water Division will make the list of 106-eligible Tribes more accessible through
the
                 following:

                 < Including the list in the TAS procedures and the grants processing procedures;
                 < Including the list in the Water Division's Monthly Monitoring Report, which is
                   distributed to the Water Division Managers and Project Officers, and to the Acquisition
                   and Assistance Branch in the Resources Management Division (RMD).

                The Water Division is also considering adding a procedural step where all Tribal program
                  grants are reviewed by one Tribal program person, as an added control to help ensure
grantee
                 eligibility requirements are met, and to foster consistency across water program grants
to
                 Tribes.


                                                     26
      Appendix 2
     Page 11 of 18




27
                                                                                                                     Appendix 2
                                                                                                                    Page 12 of 18


                                                              8

            4.   Tracking Systems - Region 5 has recently completed the development of a new database
                 system for tracking water program grant-related information, and for helping to ensure
                     compliance with applicable requirements. The Tracking and Information Management
System
                  (TIMS) builds off of information in GICS, but will include significantly more information
on
                       pre-award activities, project/program workplans, QAPP requirements, and other data
important
                 for Project Officers to manage grants and for program supervisors and RMD to track progress.
                  Among the data elements in the pre-award folder will be information on the eligibility
of
                 potential 106 recipients. This will provide even a further control to help ensure compliance
                 with eligibility requirements.

            Issue 6: Can Region 5 properly account for all available fiscal years 1995 through 1998
            Section 106 grant funds?

            OIG noted that the Region accounted for the Section 106 funds available for award in fiscal years
            1995 through 1998, with only two minor exceptions. The exceptions, $18 in fiscal year 1997 and
            $22 in fiscal year 1998, resulted from differences in the figures OIG and the Region used for the
            Headquarters allocations for those years.

            OIG stated that although Region 5 was able to account for the funds, the auditors found it difficult
            to reconcile the amounts available, planned, and awarded in fiscal years 1995 through 1998, because
            some supporting documents were not clear or were not available. OIG recommended that the
            Region improve procedures for tracking and documenting funding allocations.

            Response

            Over the past 2-3 years, the Water Division has centralized management of funding plans for
            its many grant programs. All planned allocations to Tribes for water program grants are
            consolidated and tracked by one employee (the Funding Plan Coordinator) in the State and Tribal
            Programs Branch, and are aggregated on a spreadsheet. Memoranda or other documentation related
            to the establishment of these allocations or changes to these allocations will be maintained by the
            Funding Plan Coordinator. Back-up information, e.g., checklists used to screen and rank pre-
            proposals to help develop the funding plan, will be maintained by the Tribal 106 Coordinator
            in a central file. This role clarification and changes to the Branch's operating systems have
            improved documentation of funding plans, and the ease with which grant awards can be cross-
            referenced back to funding plans.

            Funding plans by their nature are subject to change. The Region must make adjustments as new
            information is learned, e.g., grantee financial status reports show unspent balances which need to
            be de-obligated and then appropriately reallocated, or a potential grantee is found to be not be
            performing well in its management of an existing grant. Branch procedures call for all changes to
            funding plans to be managed through and fully documented by the Funding Plan Coordinator.

            Branch procedures will be further refined to ensure that clear documentation is available in a timely
            fashion to show the following:



                                                                  28
                                                                                                      Appendix 2
                                                                                                     Page 13 of 18


                                                     9

<   Tribal fund allocations by Headquarters;
<   Any adjustments made by the Region, and the supporting rationale;
<   Development of initial Tribal funding plans;
<   Modifications to the funding plan after its external release, and supporting rationale;
<   Documentation of the actual funding provided (compiled at the end of the fiscal year); and
<   A summary of the funds carried over for Tribal funding for the following fiscal year.

At the close of the fiscal year, the documentation maintained by the Funding Plan Coordinator
and the Tribal 106 Coordinator will be merged and stored in central State and Tribal Program
Branch files.

Conclusion

Region 5 appreciates OIG's thorough review of the Tribal 106 grant program, and has initiated
improvements to systems and procedures that are consistent with OIG's recommendations. The
system improvements will make information more readily available for managers to track
activities, and are expected to provide greater degrees of assurance that all applicable
requirements are complied with. Efforts will be on-going to continuously improve systems and
procedures over time.

Region 5 will keep OIG apprised of its further progress in strengthening and documenting
procedures, and actions to address the 106 grant that was awarded to ITC. Should managers or staff
in the Office of the Inspector General have any questions regarding the Region's response to OIG's
draft audit report, please ask that they contact Ms. Mary Pat Tyson at (312) 886-3006.

Attachments (3)




                                                    29
                                                                                                                        Appendix 2
                                                                                                                       Page 14 of 18


                                                                                                             Attachment 1

                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         REGION 5
                               77 WEST JACKSON BOULEVARD
                                   CHICAGO, IL 60604-3590
                                        DEC 2 4 1998

                                                                                                 REPLY TO THE ATTENTION OF


MEMORANDUM

SUBJECT:              Request for a Legal Opinion on CWA Section 106

FROM:                 David A. Ullrich (R- I 9J)
                      Acting Regional Administrator

TO:                   Gary S. Guzy (W635D)
                      Acting General Counsel

This memorandum is to request a written legal opinion from the Office of General Counsel
(“OGC”) on the legality of awarding Clean Water Act (“CWA”) Section 106 funds to reimburse
certain Indian Tribes’ legal expenses incurred in the State of Wisconsin v. U.S. EPA Treatment
as a State litigation.

Background

The State of Wisconsin filed a lawsuit in Federal District Court in both the Eastern District and
the Western District of Wisconsin to contest U.S. EPA’s 1996 decisions to treat certain
Wisconsin Indian Tribes as States for purposes of administering a water quality standards
program under the CWA (“TAS determinations”). The Lac du Flambeau Tribe intervened in the
Western District lawsuit, and the Oneida Nation intervened in the Eastern District. During the
litigation, the State of Wisconsin challenged the adequacy of the administrative record for the
TAS determinations. As a result of testimony and documents produced in discovery on this
issue, U.S. EPA concluded that the precise contents of the administrative record for the Oneida
TAS determination was uncertain. Because of this uncertainty in the administrative record, U.S.
EPA withdrew its TAS determinations for the Oneida and Lac du Flambeau Tribes in May 1997,
and moved to dismiss the lawsuits. After the Courts granted U.S. EPA’s motions to dismiss,
U.S. EPA settled with the State of Wisconsin on the State's petition for attorneys fees.1 U.S.
EPA received a request from the Lac du Flambeau for reimbursement of its litigation expenses.


         1
             The attorney fees were paid from the U.S. Judgment Fund.


                Recycled/Recyclable • Printed with Vegetable Oil Based Inks on 50% Recycled Paper (20% Postconsumer)




                             Note: The original was signed by David A. Ullrich.




                                                               30
                                                                                                        Appendix 2
                                                                                                       Page 15 of 18


                                                      2

U.S. EPA Region 5 sought the advice of OGC on whether U.S. EPA could legally reimburse
legal fees of the Lac du Flambeau Tribe. OGC verbally advised U.S. EPA Region 5 that it would
be legal to reimburse the Lac du Flambeau legal fees under CWA Section 106. However, the
Office of Water (“OW”) decided, as a policy matter, that Section 106 funds should not be used to
reimburse routine legal fees or litigation expenses for a Tribe’s development of water quality
standards and TAS applications. Nevertheless, OW agreed with Region 5 that, due to the
unfortunate and unique circumstances of this particular situation, U.S. EPA could reimburse the
portion of the litigation expenses that represented wasted effort; that is, those tasks and expenses
that would have to be repeated for any future TAS litigation. After evaluating the litigation
expenses documentation provided by the Lac du Flambeau to determine the amount of costs that
met this criteria, U.S. EPA Region 5 reimbursed $75,000 of the Lac du Flambeau’s litigation
expenses.

Draft Report of the Inspector General

On December 14, 1998, the Office of Inspector General (“OIG”) issued a draft report on “Region
5 Section 106 Tribal Water Grants.” (See Attachment.) One of the issues examined by the OIG
was whether Region 5 “improperly used Section 106 grant funds” to pay for litigation expenses
of Wisconsin tribes. The OIG's recommendation on this issue is that Region 5 obtain a written
legal opinion from OGC on the legality of awarding Section 106 funds to reimburse a tribe’s
litigation expenses. The OIG recommends that if the OGC opinion does not support Region 5's
action, then Region 5 will need to annul the grant and recover the funds from the tribe.

U.S. EPA Region 5 has 30 days to respond to the OIG’s draft report. U.S. EPA requests that
OGC provide a written legal opinion on the legality of using CWA Section 106 to reimburse
litigation expenses. If possible, we would appreciate having the legal opinion to include with our
response to the OIG, which is due January 14, 1998.


cc:      Robert G. Dreher (W635E)

Attachment




                                                     31
                                                                                                        Appendix 2
                                                                                                       Page 16 of 18


                                                                                         Attachment 2
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460

                 RECEIVED
                   FEB 0 2 1999
                   U.S. EPA REGION 5                                                    OFFICE OF
           OFFICE OF REGIONAL ADMINISTRATOR                                         GENERAL COUNSEL
January 28, 1999

MEMORANDUM

SUBJECT:            Use of Clean Water Act section 106 grant funds for the payment of legal expenses

FROM:               Leslie Darman
                    Office of General Counsel
                    Finance and Operations Law Office,
                    Assistance Law Practice Group

THROUGH:            Steve Pressman, Assistant General Counsel
                    Office of General Counsel,
                    Finance and Operations Law Office,
                    Assistance Law Practice Group

TO:                 David Ullrich
                    Acting Regional Administrator
                    Region V

          By memorandum dated December 24, 1998, you requested a legal opinion from the Office
of General Counsel (OGC) on the legality of awarding Clean Water Act (CWA) Section 106
funds to reimburse some of the Lac du Flambeau Tribe’s legal expenses incurred in the State of
Wisconsin v. U.S. EPA litigation concerning EPA’s designation of certain Tribes as eligible for
treatment in a manner similar to a state for the purpose of administering water quality standards.

           According to your letter, the State of Wisconsin filed complaints against EPA in both the
Eastern and the Western Districts of Wisconsin contesting EPA’s 1996 decision to treat certain
Wisconsin Indian Tribes as states for purposes of administering a water quality standards program
under the Clean Water Act (“TAS determinations”). The Lac du Flambeau Tribe intervened in
the Western District lawsuit, and the Oneida Nation intervened in the Eastern District. During the
 litigation, Wisconsin challenged the adequacy of the administrative record for the TAS
determinations. As a result of testimony and documents produced in discovery on this issue, EPA
concluded that the precise contents of the administrative record for the Oneida TAS
determination were uncertain. Because of this uncertainty in the administrative record, EPA
withdrew its TAS determinations for the Oneida and Lac Du Flambeau Tribes and moved to
dismiss the complaints. After the Court granted EPA’s motions to dismiss, EPA settled
                                                                                   Printed on Recycled Paper



               Note: The original was signed by Leslie Darman and Steve Pressman.



                                                    32
                                                                                                      Appendix 2
                                                                                                     Page 17 of 18


Wisconsin’s petition for attorney’s fees and the fees were paid from the United States Judgment
Fund.

          The Lac du Flambeau Tribe also requested reimbursement of its legal expenses. EPA
Region V sought the advice of OGC on whether and how EPA could reimburse the Lac du
Flambeau Tribe’s legal expenses. The Office of General Counsel advised Region V and the
Office of Water that, as a legal matter, the Agency could award a § 106 grant to the Tribe for
legal expenses incurred in defending its ability to administer a water quality standards program.
Region V also consulted with the American Indian Environmental Office and the Office of Water.

          After consideration of the matter, EPA decided, as a policy matter, that Section 106 funds
should not be used to reimburse routine legal expenses for a Tribe’s development of water quality
standards and TAS applications. However, EPA determined that it would be appropriate to
reimburse a portion of the Lac du Flambeau Tribe’s legal fees, specifically, that portion of the
legal fees attributable to the Tribe’s efforts in defending its ability to administer a water quality
standards program that were wasted because of the unfortunate and unique circumstances of this
case.

          In an audit of Region V's award of CWA § 106 grants to tribes, the EPA Office of
Inspector General (OIG) reviewed a CWA § 106 grant to the Lac du Flambeau Tribe for these
legal expenses and concluded that the award was not proper because:

          In [the OIG’S] opinion, the litigation expenses did not qualify under Section 106 as
          a cost of administering a program for the prevention, reduction, and elimination of
          water pollution. If the State of Wisconsin’s lawsuit had been a challenge to the
          water quality standards developed under the authority of the tribe’s TAS status,
          then the tribe’s defense of its standards may have qualified as a cost of
          administering a water quality program. However, the tribe’s purpose in incurring
          litigation expenses, its desire to maintain TAS status and the authority to carry out
          a water quality program, did not constitute “administering” the program within the
          meaning of Section 106. Without TAS status, the tribe was not authorized to
          carry out the water quality standards program.

Draft Audit Report No. E3RWF8-05-0045 (December 14, 1998). The OIG recommended that
Region V obtain a written opinion from OGC “on the legality of awarding Section 106 funds to
reimburse a tribe’s litigation expenses incurred in defending its ability to administer a water quality
standards program.”

           We disagree with the OIG’s analysis and conclusion. Section 106 funds could be used to
reimburse the Lac du Flambeau Tribe for legal expenses associated with a lawsuit challenging the
Tribe’s water quality standards program. Section 106 of the Clean Water Act authorizes grants
to assist States, interstate agencies, and Indian tribes “in administering programs for the
prevention, reduction, and elimination of pollution, including enforcement . . . .” The



                                                      2




                                                     33
                                                                                                        Appendix 2
                                                                                                       Page 18 of 18


development, expansion, and implementation of a water quality standards program can clearly be
a part of a larger “program[] for the prevention, reduction, and elimination of pollution.”
Expenses incurred in a tribe's efforts to develop, expand, or implement a water quality standards
program are thus encompassed by the phrase "administering programs for the prevention,
reduction, and elimination of pollution." The Lac du Flambeau Tribe needed a separate TAS
determination in order to administer a water quality standards program. Like other costs
associated with developing a water quality standards program, the legal fees that the Tribe
incurred in defending its ability to administer a water quality standards program (the TAS
determination) are reimbursable under a §106 grant.

           The OIG’s analysis is conclusory and simply suggests that the Tribe’s litigation expenses
are not allowable under § 106 because the Tribe did not already have TAS status to administer a
water quality standards program.1 The unstated premise in the OIG's analysis is that § 106 grants
may not be used to develop programs. We disagree. Costs (not otherwise unallowable) that are
associated with a prerequisite to the actual administration of a water quality standards program
are eligible for funding under § 106. We interpret the phrase “administering programs” to include
the development and expansion of programs. This is consistent with the statute itself While §
106(a) authorizes EPA to make grants for “administering programs”, § 106(c) authorizes EPA to
“pay ... the reasonable costs as determined by the Administrator of developing and carrying out a
pollution program.” 33 U.S.C. § 1256(a) and (c)(emphasis added). If Congress intended
“administering” to mean exclusively the “carrying out”of a program, then it would not have given
EPA the authority to pay for developing a program as well.

          There is nothing in the legislative history to suggest that Congress used the term
"administering programs" to preclude the Agency from awarding grants to establish, develop or
expand State or Tribal programs for the prevention, reduction, and elimination of pollution.
Moreover, Congress has demonstrated its ability to give EPA the limited authority to award
grants exclusively for either development or implementation activities. See, e.g., Indian
Environmental General Assistance Act, 42 U. S. C. § 43 68b(b)(d)and (f); Clean Water Act, 33
U.S.C. § 1329(h); compare Clean Air Act, 42 U.S.C. § 7405(a)(“for the purpose of this section
‘implementing’ means any activity related to the planning, developing, establishing, carrying-out,
improving, or maintaining of such programs"). Congress chose not to so limit EPA's grant
authority in § 106.

          In conclusion, EPA’s interpretation of “administering” to include activities in support of
the development, expansion, and establishment of a program is very reasonable. The Lac du
Flambeau Tribe’s defense of its ability to administer a water quality standards program supported
its development of a water quality standards program. Therefore, as a legal matter, the award of
a § 106 grant to the Tribe for that purpose is proper.


          1
            It is difficult to discern the rationale for the OIG's conclusion. OGC would have been
able to respond more fully if the OIG had articulated more fully its reasons for concluding that the
Tribe's legal expenses were not reimbursable under a § 106 grant.


                                                     3




                                                    34
                                             Appendix 2
                                            Page 19 of 18



cc:   Gary Guzy, General Counsel
      Robert Dreher, OGC
      Marla Diamond, OGC
      Howard Corcoran, OGC
      Jim Havard, OGC
      Clarence Braddock, OW
      Kathy Gorospe, AEEO
      Gaylene Vasaturo, ORC Region V
      Padma Klejwa, ORC Region V
      Barbara Wester, ORC Region V




                                       4




                                       35
                                                                                                          Appendix 2
                                                                                                         Page 20 of 18


                                                                                           Attachment 3

                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       REGION 5
                             77 WEST JACKSON BOULEVARD
                                 CHICAGO, IL 60604-3590
                                      APR 2 3 1998

                                                                     REPLY TO THE ATTENTION OF:
MEMORANDUM

SUBJECT:           Decision to use CWA Section 106 Grant Funds to Reimburse Certain
                   Legal Expenses for Wisconsin TAS Litigation

FROM:              David A. Ullrich (R-19J)
                   Acting Regional Administrator

THRU:              Robert L. Springer (M-9J)
                   Director, Resources Management Division

TO:                Jo-Lynn Traub (W-15J)
                   Director, Office of Water

           As you know, last year U.S. EPA Region 5 withdrew its Treatment as a State (“TAS”)
decisions for the Oneida Nation and Lac du Flambeau Band due to uncertainties regarding the
precise contents of the administrative records. Then, U. S. EPA moved to dismiss the pending
litigation in Federal District Court in both the Eastern District of Wisconsin and the Western
District of Wisconsin. The Western District Court granted U.S. EPA’s motion last June and the
Eastern District Court granted U.S. EPA’s motion to dismiss last month.

          After dismissal in the Federal District Court for the Western District of Wisconsin, U.S.
EPA received a request for reimbursement of legal expenses from two of the tribes involved in
the TAS litigation. After considerable evaluation, U.S. EPA Headquarters and Region 5
together made a decision that, due to the unique circumstances of this litigation, Section 106
grant money could be used to pay a portion of TAS legal expenses, as set out below.

          Clean Water Act (“CWA”) Section 106 grants are to assist Indian Tribes in
administering programs for the prevention, reduction, and elimination of water pollution. U.S.
EPA considers that some legal fees are within the scope of activities covered by the Section 106
grant authority; however, U.S. EPA’s Office of Water does not allow, as a policy matter,
Section 106 grant money to be awarded for routine legal costs associated with the tribes TAS
water pollution control programs.


                                                                                     Printed on Recycled Paper




            Note: The original was singed by David A. Ullrich and Robert L. Springer.




                                                     36
                                                                                                      Appendix 2
                                                                                                     Page 21 of 18



                                                     2



           Nevertheless, the Region, together with U.S. EPA's Office of Water, determined that, due
to the circumstances presented by the Wisconsin litigation, it would be appropriate to reimburse
a portion of the tribal attorneys' fees from the Fiscal Year (FY) 1998 Section 106 funds.
Specifically, U.S. EPA would reimburse the portion of the tribal attorneys' fees which
represented wasted effort, i.e., those tasks and expenses that would have to be repeated for any
future TAS litigation or which would not be expected to be incurred in future TAS litigation.

          Because there was no pre-approval for the expenditure of the tribal attorneys' fees, in
order for the Section 106 funds to be awarded through a grant, it is necessary to seek a deviation
for use of the funds to cover these costs. A copy of the deviation request for the Lac du
Flambeau Band, which was sent by the Region to Headquarters on April 17, 1998, is attached as
Attachment A. This deviation request further sets forth the rationale of the Agency for the
abovementioned course of action.

          We consider these legal expenses to be a one-time expenditure, again, due to the unique
circumstances presented by the Wisconsin litigation. Please take all necessary steps to
coordinate with the Resources Management Division to investigate the availability of
discretionary funds. Our goal is to prevent the net loss of funds available to the tribes in your
development of the Regional CWA Section 106 funding plan for Fiscal Year 1998.



Attachment




                                                    37
                                                       Appendix 3
                                                       Page 1 of 1

                                Abbreviations

CFR    Code of Federal Regulations

EPA    United States Environmental Protection Agency

ITC    Intertribal Council of Michigan

LTBB   Little Traverse Bay Band

OGC    Office of General Counsel

OIG    Office of Inspector General

TAS    Treatment as a State




                                         38
                                                                                   Appendix 4
                                                                                   Page 1 of 1

                                       Distribution

Region 5

Water Division Director (W-15J)
Team Leader, CAST-PAAS (Followup Coordinator) (MFA-10J)
Library (PL-12J)
Public Affairs (P-19J)
Intergovernmental Relations Officer (R-19J)

EPA Headquarters

Chief Financial Officer (2710)
Agency Followup Coordinator (2724)
Grants and Debarment (3901R)
Liaison, Grants Administration Division (3903R)
Director, American Indian Environmental Office (4104)
Associate Administrator for Congressional and Intergovernmental Relations (1301)
Director, Regional Operations (1108)
Associate Administrator for Communications and Public Affairs (1701)
Deputy Associate General Counsel, Finances and Operation Law Office (2377)

Office of Inspector General

Inspector General (2410)
GAO-Issue Area Planner




                                             39
